Audit Report 14-05:  Independent Auditors’ Report on the SBA’s FY 2013 Special-Purpose Financial Statements | The U.S. Small Business Administration | SBA.gov
Skip to main content
Jump to Main Content
An Official Website of the United States Government
Translate
LoginSBA LoginUsing valid employee GLS loginRegister
Search form
Search SBA
Contact SBA
Contacto (en español)
Newsroom
Community
For Lenders
Email Updates
Blogs
SBA.gov » Office of Inspector General » Audit Reports by Program Area or Topic » Agency Management » Audit Report 14-05:  Independent Auditors’ Report on the SBA’s FY 2013 Special-Purpose Financial Statements
Inspector General
About Us
OIG Directory
NewsroomEmail Alerts
Press Releases
Recent Investigative & Audit Actions
Congressional Testimony
Top Management Challenges
Semi-Annual Reports to Congress
Hotline
Whistleblower Protection
Searchable List of OIG Reports
Audit Reports by Program Area or TopicBusiness Loans and Lender Oversight
Disaster Loans
Surety Bonds
SBICs
Government Contracting and Business Development
Entrepreneurial Development
Agency Management
External Quality Control Reviews of the OIG
Recovery OversightActivities
Plans
Reports
OIG Reports Audit Report 14-05:  Independent Auditors’ Report on the SBA’s FY 2013 Special-Purpose Financial Statements
Date Issued:
Tuesday, December 17, 2013
Report Number:
14-05
On December 17, 2013, the OIG issued Audit Report 14-05, Independent Auditors’ Report on the SBA’s FY 2013 Special-Purpose Financial Statements.  In accordance with the Office of Management and Budget Circular No. A-136, Financial Reporting Requirements and the Treasury Financial Manual, Part 2, Chapter 4700 (TFM 2-4700), the independent auditor issued its report on the Small Business Administration’s (SBA) reclassified balance sheet as of September 2013  and 2012, and the reclassified statements of net costs and changes in net position and Federal trading partner note for the year then ended.
The auditor found that the statements, including the Federal trading partner note, present fairly in all material respects, the financial position of the SBA as of September 30, 2013, and 2012.  Also, the results of operations and the changes in net position for the period then ended are in accordance with U.S. generally accepted accounting principles, and the presentation is in conformance with the requirements of TFM 2-4700.
Log in or register to post comments
Leadership
Peggy E. Gustafson
Inspector General
Peggy E. (Peg) Gustafson was sworn in as SBA Inspector General on October 2, 2009. Ms. Gustafson previously served as General Counsel to Senator Claire McCaskill (D-MO), where she advised the...
1 of 2
next ›
GET EMAIL UPDATES
In Partnership with Business USA
Aid, counsel, assist and protect, insofar as is
possible, the interests of small business concerns.
Sign up for e-mail updates.
Customer Service
About SBA
Contact SBA
Contacto (en español)
Media and Press Relations
SBA Locations
SBA Team
About SBA.gov
Site Map
Privacy Policy
Linking Policy
Accessibility
Disclaimers
Social Media
Data Store
SBA Information
Freedom of Information Act
No Fear Act
Report Fraud, Waste, and Abuse
Initiatives
Plain Language
SBA Performance
Strategic Planning
Performance and Budget
Open Government
Policy and Regulations
Eliminating Fraud, Waste and Abuse
Advocacy & Oversight
Inspector General
Advocacy
Hearings and Appeals
Ombudsman
Tools and Features
Online Training
Create a Business Plan
Find Events
Qualify for Government Contracts
Analyze Your Business
SBA Partners
WhiteHouse.gov
USA.gov
Regulations.gov
BusinessUSA.gov